\r
Appendix A
Court ofAppeals Memorandum

2

MEMORANDUM DECISION
Presiding Judge Jennifer B. Campbell delivered the decision of the Court,
in which Judge Lawrence F. Winthrop and Chief Judge Peter B. Swann
joined.
CAMPBELL, Judge:
% 1 Darrel Mendez appeals from the superior court’s judgment in favor of
NRZ REO X LLC (“NRZ”) in a forcible entry and detainer (“FED”) action.
Because the issue Mendez raises on appeal—challenging the merits of
NRZ’s title—cannot be tried in an FED action, we affirm.
BACKGROUND f 2 In May 2006, Jenny Mendez executed a promissory
note secured by a deed of trust on certain real property (“the property”).
In February 2019, U.S. Bank National Association (“U.S. Bank”), acting
“not in its individual capacity but solely as Trustee” for a NRZ trust,
purchased the property at a trustee’s sale. After the appointed trustee
conveyed the property to U.S. Bank through a trustee’s deed, U.S. Bank
executed a warranty deed transferring the property to NRZ. % 3 In early
March 2019, NRZ served the residents of the property (collectively, “the
Mendezes”) with a “Notice To Vacate,” explaining that the property had

3

been sold at a foreclosure sale and demanding that they vacate the
premises within five days. Nine days later, NRZ sued the Mendezes for
forcible detainer, alleging they had refused to surrender possession of the
property, f 4 After a bench trial, the superior court entered judgment in
favor of NRZ, finding the Mendezes guilty of forcible detainer. Darrel
Mendez timely appealed.
DISCUSSION f 5 As his sole issue on appeal,1 Mendez asserts that NRZ
lacked standing to bring an FED action. Specifically, Mendez contends
that only U.S. Bank, the grantee of the trustee’s deed, is a real party in
interest with the “capacity to sue.” ^f6 Whether a party has standing to
bring an FED action is a question of law that we generally review de novo.
See Robert Schalkenbach Found, v. Lincoln Found., Inc., 208 Ariz. 176,
180, t 15 (App. 2004). The appellate record does not reflect, however, that
Mendez challenged NRZ’s standing in the superior court, and by failing
to do so, he waived the issue absent fundamental, prejudicial error.2 See
State v. Sucharew, 205 Ariz. 16, 23, If 17 (App. 2003). If 7 “[T]o have
standing, a plaintiff must have suffered injury in fact, economic or
otherwise.” Aegis of Ariz., L.L.C. v. Town of Marana, 206 Ariz. 557, 562,
If 18 (App. 2003) (internal quotation omitted). “In addition, that injury

must be distinct and palpable, such that the plaintiff has a personal stake
in the outcome of the controversy.” Id. at 562-63, U 18 (internal quotation
omitted). f8 Relying on Merrifield v. Merrifield, 95 Ariz. 152 (1963),
Mendez argues that “[o]nly a trustee’s deed,’ not a warranty deed,
conveys title to a purchaser under Arizona’s deed of trust statutory
scheme, and therefore In his opening brief, Mendez mentions in passing
that “the property was sold at [a] trustee sale via a successor trustee, not
the trustee under the deed of trust.” Because he failed to cite relevant
supporting authority or develop the argument further, Mendez waived
any challenge on that basis. See Polanco v. Indus. Comm’n of Ariz., 214
Ariz. 489, 491, 1 6 n.2 (App. 2007) (an appellant’s failure to develop and
support an argument waives the issue on appeal). Regardless, the
beneficiary of a deed of trust “may at any time remove a trustee for any
reason or cause and appoint a successor trustee, and such appointment
shall constitute a substitution of trustee.” A.R.S. § 33-804(B). Although
Mendez asserts that he “raised the [standing] issue,” he provides no
citation to the record to support this claim and our review reveals none.
While the “Defense’s List of Witnesses and Exhibits,” attached to the
opening brief, claims, among other things, that NRZ lacked standing, the
5

record does not reflect that this document was filed in the superior court.
NRZ holds no title interest in the property. But in Merrifield, this court
held that it is improper to inquire into the merits of title in an FED
action. Id. at 154. % 9 As limited by statute, an FED action offers rightful
landowners a summary remedy for obtaining possession of property, and
challenges to the validity of title, including chain of title, can neither be
raised nor resolved in such a proceeding. A.R.S. § 12-1177(A) ( On the
trial of an action of forcible entry or forcible detainer, the only issue shall
be the right of actual possession and the merits of title shall not be
inquired into.”). Accordingly, issues concerning title must be brought in
a quiet title action. See Curtis v. Morris, 184 Ariz. 393, 398 (App. 1995)
(“Because an FED action does not bar subsequent proceedings between
the parties to determine issues other than the immediate right to
possession, those issues are better resolved in proceedings [other than
FED actions].”). If 10 Here, NRZ purchased the property at a trustee’s
sale through its trustee, U.S. Bank. In so doing, NRZ became the rightful
owner of the property under Arizona’s deed of trust statutory scheme. See
A.R.S. § 33- 811(B) (stating a trustee’s deed of sale “shall constitute
conclusive evidence” of the statutory requirements of the deed of trust “in
6

favor of purchasers or encumbrancers for value and without actual
notice”). Mendez, despite having received a written demand, failed to
vacate the premises. A.R.S. § 12-1173.01(A)(2) (stating a person “who
retains possession of . . . real property after he receives written demand
of possession may be removed through an action for forcible detainer . . .
[i]f the property has been sold through a trustee’s sale under a deed of
trust.”). NRZ therefore had a personal stake, and standing to sue, in the
FED action.
CONCLUSION fll For the foregoing reasons, we affirm. As the
successful party, NRZ is awarded its costs on appeal pursuant to A.R.S.
§ 12-341, contingent upon compliance with ARCAP 21.

7

r

Supreme Court
STATE OF ARIZONA
ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396
ROBERT BRUTINEL Chief Justice
TRACIE K. LINDEMAN Clerk of the Court

March 29, 2021

RE: NRZ REO X LLC v DARREL MENDEZ
Arizona Supreme Court No. CV-20-0272-PR
Court of Appeals, Division One No. 1 CA-CV 19-0633
Maricopa County Superior Court No. CV2019-005349

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on March 29, 2021, in regard to the above-referenced
cause:

ORDERED: Petition for Review = DENIED.
A panel composed of Vice Chief Justice Timmer, Justice Bolick,
Justice Beene, and Justice Montgomery participated in the
determination of this matter.
Tracie K. Lindeman, Clerk

TO:
Darrel Mendez
Kim R Quam
Amy M Wood

9

